HHS/OIG-Audit--"Flexible Benefit Plans Negatively Impact Medicare's Hospital Insurance Program, (A-05-93-00066)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Flexible Benefit Plans Negatively Impact Medicare's Hospital Insurance
Program," (A-05-93-00066)
August 8, 1994
Complete Text of Report is available in PDF format
(1.1 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report estimates that flexible benefit plans (salary reduction agreements
whereby an employee elects a reduced salary so that payment can be taken in
the form of nontaxable fringe benefits) will cost the Medicare trust fund revenues
of about $2.1 billion over the next 5 years. While revenue declines, future
expenditures will not decline since participants in flexible benefit plans lower
their liability for Medicare taxes, but remain entitled to receive the full
range of Medicare benefits. We recommended that flexible benefit plans be included
in the health insurance portion of the Federal Insurance Contributions Act taxable
wage base.